No.

 

IN THE
Supreme Court of the United States

ARTHUR GREGORY LANGE,
Petitioner,
Vv.
STATE OF CALIFORNIA,
Respondent.

On Petition for a Writ of Certiorari
to the Court of Appeal of the State of California,
First Appellate Division

CERTIFICATE OF SERVICE

The undersigned certifies that he has this 10th day of July 2020,
caused three copies of the foregoing Petition for a Writ of Certiorari to be
served on each of the below-named counsel by first-class mail, postage

prepaid, and further certifies that all persons required to be served have been
served:

Xavier Becerra

Attorney General

STATE OF CALIFORNIA / DEPARTMENT OF JUSTICE
455 Golden Gate Avenue, Suite 11000

San Francisco, CA 94102-7004

(415) 510-4400

AGelectronicservice@doj.ca.gov

——

Brian H. Fletcher
Counsel for Petitioner
